 Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




PHYSICIAN USE OF NEW VISIT CODES
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

Oei’s Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                                HEADQUARTERS

Joe Townsel, Project Leader                           Tom Noplock, Program Analyst
Betty Apt, Team Leader                                Barbara Tedesco, Statistician
Jackie Andrews, Program Analyst                       Stuart Wright, Program AnaZyst
Tammy Bonney, R-ogram AnaZyst

For additional copies of this report, call the Atlanta Regional OffIce at (404) 331-4108.
                      ,




 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




PHYSICIAN USE OF NEW VISIT CODES





          ~$h
                fs SERVIC&$   “t/*
                                 9

         $W                          JUNE  GIBBS BROWN
         :d                          Inspector General
          #
          % $
           %$+
                %d~~
                2    MAY                            1995
                                            OEI-O4-92-O1O6O
                       EXECUTIVE                         SUMMARY


     PURPOSE

     To determine    whether or not physicians uniformly and accurately   use new visit codes
     adopted   by the Health Care Financing Administration   in 1992.

     BACKGROUND

     The Health Care Financing Administration     (HCFA) bases Medicare payments to
     physicians partly on a system of five-digit codes. Generally, the codes represent type and
     complexity of service provided, and patient status, such as new or established.  Medicare
     payments are generally higher for more complex and longer visits.

     Effective in 1992, HCFA adopted new visit codes developed by the American Medical
     Association (AMA). The AMA revised the previous coding system used by Medicare,
     and redefined physician services those codes represent.

     The revised codes were designed to improve coding uniformity and accuracy. Uniform
     coding is achieved when codes physicians submit to Medicare reflect a consistent pattern
     throughout a universe of physicians. Accurate coding is achieved when physicians select
     codes which consistently fit the services physicians actually provided.

     METHODOLOGY

     We drew our data from two sources.

     First, we surveyed eight randomly selected Medicare carriers to determine how they
     implemented and monitored the new codes. As part of that effort, we asked appropriate
     personnel from each carrier to code clinical vignettes to measure carrier accuracy and
     consistency in selecting correct codes. All eight carriers responded to our survey.

     Second, we randomly surveyed 328 physicians concerning their experiences with the new
     visit codes. Despite a number of follow-up attempts, only 61 physicians (18 percent)
     responded to our survey. Of the 328 physicians surveyed, 101 were primary care
     physicians. We asked the primary care physicians to code five clinical vignettes designed
     to measure how accurately and consistently physicians chose correct codes. Of the 101
     primary care physicians, 14 (13 percent) completed the vignettes.

     Because of low response rates to the physician survey, we cannot draw definitive
     conclusions regarding the experience of physicians in using new visit codes or their
     understanding of new visit codes. Nonetheless, we believe the data we did obtain may
     provide useful insight to HCFA. Therefore, we presented it in this report.




                                                     i


—   .—          —
~             HAVE DIFFICULTY          SELECTING NEW CODES

None of the five vignettes were coded the same way by all sampled carriers, which
illustrates carrier difficulty understanding the new visit codes. The vignettes were coded
with a one level discrepancy, or carriers conceded they were unable to decide between
two possible codes. Further, most carriers said (1) code definitions are not clear, and (2)
they believe that physicians are not using the codes uniformly and accurately.

PHYSICIANS HAD DIFFICULm               SELECI’ING CODES

The 14 physicians   who coded our test vignettes also demonstrated    difficulty selecting the
codes accurately.   Only 1 of the 14 physicians coded all 5 of the vignettes correctly as
defined by the AMA. Many of the 61 physicians who responded to our survey frequently
delegate code selection to their office staff.

CARRIERS HAVE TAKEN LIMITED ACTION TO ENFORCE                           COMPLIANCE
WJTH NEW VISIT CODES

Carriers we surveyed said that, since the new visit codes were implemented in 1992, they
have taken virtually no action against physicians for submitting improperly coded claims.

RECENT HCFA GUIDANCXl MAY IMPROVE CODING UNIFORMITY                               AND
ACCURKX

Since the time of our survey, HCFA and the AMA have collaborated on, and
disseminated medical record documentation guidelines. HCFA staff expect the
guidelines to result in more uniform and accurate coding. The guidelines, issued in
November 1994, are designed to clarifi criteria for visit codes.

CONCLUSIONS

Because of limited responses by physicians, the information presented in this report
should be viewed as prelimina~. We make no recommendations.            However, our data
does raise concerns or questions about use of new visit codes, Those concerns are (1)
the accuracy of codes selected by physicians, (2) the ability of carriers to correctly advise
physicians on coding matters, and (3) the extent to which carriers effectively and
appropriately monitor physician use of the codes. These concerns will be addressed in
future reports by the OIG.




                                                11




       —
                              TABLE                    OF CONTENTS


                                                                                                                          PAGE




       momma...
          . . . . ............                                       ..............................                               I�




          �
                    Carrier Difficul~With         The Codes . . . . . . . . . . . . . . . . . .

                                                                                                 . . . . . . . .m.mm 4

          �
                    Physician Difficul~With          The Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . ..7


          �
                    Limited Enforcement         By Carriers . . . . . . . . . . . . . . . . . .

                                                                                                       . . . . . . . . . . . . . 8

          �
                    Recent HCFAGuidance               . . . . . . . . . . . . . . . . . .

                                                                                             . . . ..O . . . ..O . . . . . . . 8


      mN~USIONS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9



      APPENDICES


      &       Vignettes Coded By Carriers, hd            Family hd          General Practitioners              . . . . . . A-1


      B: Vignettes Coded By Internists . . . . . . . . . . . . . . . . . .

                                                                                       . . . . . . .OO...      . . . . . . B-1





—..
                            INTRODUCTION


PURPOSE

To determine whether or not physicians uniformly and accurately use new visit codes
adopted by the Health Care Financing Administration in 1992.

BACKGROUND

The Health Care Financing Administration (HCFA) bases Medicare payments to
physicians partly on a system of five-digit codes. Generally, the codes represent type and
complexity of service provided, and patient status, such as new or established. Medicare
payments are generally higher for more complex and longer visits. For example, a
Medicare patient visit involving an in-depth examination for symptoms indicative of
cancer would receive a higher payment code than a less complex visit for symptoms of a
common cold.

Medicare Pre-1992 Visit Codes and Related Problems

From 1983 through 1991, the coding system used by HCFA did not result in uniform and
accurate billing by physicians. Over that time period, various organizations, including
Medicare carriers, Office of Inspector General (OIG), and HCFA identified coding
problems that led to inappropriate Medicare payments.

For example, in 1989, an OIG inspection report (OAI-04-88-O0700) showed that the
coding system did not evidence “even a semblance of the uniformity sought” in physician
billing. Physician use of codes for billing Medicare varied widely. Based partly on the
OIG report, the American Medical Association (AMA), HCF~ and other agencies have
studied the coding system over the last several years. The OIG and other reviewers
generally described the coding problems as follows.

  k	   Vague code descriptions resulted in differences in physician interpretation   of
       services each code represented.

  ~	   Physicians apparently sought to maximize reimbursement      by billing a higher level
       code than appropriate for services rendered.

  F	   HCFA and Medicare carriers did not consistently review and challenge coding
       practices by physicians.




                                              1

New   vii   axk

Effective in 1992, HCFA adopted new visit codes developed by the AMA. That is, AMA
revised the previous coding system Medicare and other insurers use. The AMA also
redefined the physician services those codes represent. Like the previous codes, the new
codes consist of five digits.

The revised codes were designed to improve coding uniformity and accuracy. Although
coding uniformity and accuracy are related goals, the terms are not synonymous.
Uniform coding is achieved when codes physicians submit to Medicare reflect a
consistent pattern throughout a universe of physicians. For example, five new codes
represent the five alternative levels of complexity which gauge services physicians provide
during office visits with established patients. If, nationally, physicians select the third
level code about 52 percent of the time, but physicians in several States select it only
about 30 percent of the time -- that would be a lack of uniformity.

Coding accuracy is achieved when physicians select codes which fit the services actually
provided. Using the above scenario as an example, any time a particular physician
selects a code which represents an office visit of lesser or greater complexity than that
which was actually provided -- that is inaccurate coding. Generally, to assess coding
accuracy, a Medicare carrier must review a physician’s medical records supporting
specific services that were billed.

The pre-1992 visit codes included virtually no descriptive information which physicians
could use to accurately select a code. Those codes represented services which were
described only as “brief, “ “limited,” or similar subjective wording. Contrastingly, the
revised definitions established much more specific, but elaborate, criteria for each code.
The revised definitions included up to seven components of a visit. They were (1)
medical history, (2) examination, (3) medical decision making, (4) counseling,
(5) coordination of care, (6) nature of the presenting problem, and (7) an estimated
amount of time physicians typically spend providing a service. The codes for the more
complex services require more components than do codes for less complex services.

The new coding system also reduces the number of codes available for use. This change
was designed to reduce opportunities for erroneous interpretation of codes when
physicians bill for services.

METHODOLOGY

We conducted structured interviews with HCFA headquarters       staff to determine
procedures HCFA used to implement the new visit codes.

We surveyed eight randomly selected Medicare carriers to determine how they
implemented and monitored the new codes. We mailed each carrier a standardized
questionnaire. All eight carriers completed our questionnaire. However, we
supplemented the written responses by visiting one carrier and telephoning the remaining


                                             2
seven. We also asked appropriate personnel from each carrier to code five clinical

vignettes to measure carrier accuracy and uniformity in selecting codes.


We surveyed 328 physicians to determine how they used the new codes. We used

HCFA’S automated Unique Physician Identification Numbers file to randomly sample 360

physicians who were served by one of the eight Medicare carriers we had selected.

However, we dropped 32 physicians from our sample because of unknown addresses,

deaths, and retirements. We mailed standardized questionnaires to the remaining 328

physicians. A total of 61 physicians returned completed questionnaires, for a response

rate of 18 percent. Physician participation in our survey was voluntary.


Our sample of 328 physicians included 101 primary care physicians. Primary care

physicians are those in family and general practice and those in internal medicine. To

determine if physicians uniformly and accurately use the new codes, we asked the

primary care physicians to code five clinical vignettes as they would code an actual office

visit. We did not send test vignettes to sampled physicians in other specialties because

the number of sampled physicians in any one specialty was very small.


The 101 primary care physicians to whom we sent vignettes included 56 family and

general practitioners and 45 internists. We sent one set of five vignettes to family and

general practitioners, and a different set of five to internists. The set we sent to family

and general practitioners was the same as the set we sent to carriers. Fourteen

physicians coded and returned the vignettes -- a completion rate of 13 percent.

Appendix A shows the vignettes we sent to family and general practitioners and carriers.

Appendix B shows the vignettes we sent to internists.


The vignettes we used were furnished to us by the AMA. The AMA also provided the
appropriate visit code for each vignette. We used AMA’s coding as a standard for
determining if physicians coded the vignettes accurately.

Because of the low response rates to the physicians’ survey, we cannot draw definitive
conclusions regarding the experience of physicians in using new visit codes. Nonetheless,
we believe the data we obtained will provide useful insights to HCFA and are therefore
presented in this report.

We conducted this inspection in accordance with the Quali& Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              3

                                   FINDINGS


CARRIERS HAVE DIFFICULTY             SELECI’ING NEW CODES

Lack of Cothg Uniformity among Cam%

To assess coding uniformity, we analyzed responses to five test vignettes coded by the
eight sampled carriers.

The vignettes we sent to carriers described office visits provided by a physician to an
established patient. Five new visit codes represent various levels of complexity for office
visits with such patients. The codes are 99211, 99212, 99213, 99214, and 99215.

Notably, none of the five vignettes were coded the same way by all sampled carriers.
The vignettes were coded with a one level discrepancy, or carriers conceded they were
unable to decide between two possible codes. The following pattern was typical.

  b	   In coding one of the vignettes, three carriers selected code 99214, while three
       carriers selected 99215. The other two carriers were unable to decide between
       those two codes. The correct code, according to the AMA, was 99215.

  F	   For another vignette, four carriers selected code 99214, and three carriers selected
       99215. The remaining carrier was unable to decide between 99214 and 99215.
       The correct code was 99214, according to AMA.

  b	   For another vignette, three carriers selected code 99213. Four carriers selected
       99214. The remaining carrier was unable to decide between 99213 and 99214.
       The correct code was 99214, according to AMA.

The lack of uniform coding was similar to HCFA findings in 1992. To assess uniformity,
HCFA staff in a regional office had 4 Medicare carriers code 14 actual physician visits.
The carriers coded the visits based on medical records supplied by physicians who had
submitted Medicare claims. The visits were for hospital and other types of medical care.
None of the 14 visits, however, were coded the same way by all 4 carriers. HCFA found
that the 4 carriers selected between 2 and 4 different codes for each of the 14 visits.

  b    Ten visits were coded two different ways.

  b    Three visits were coded three different ways.

  b    One visit was coded four different ways.




                                             4

Luck of Clear Code De@tions

Six of the eight carriers we surveyed said the new visit codes are not clear. Most of those
carriers said lack of clear definitions was the root cause of most coding problems.

For example, one carrier specified that a clearer definition was needed to differentiate
two levels of medical history and examination -- “problem focused” history and
examination, as opposed to “extended problem focused” history and examination. Those
terms are part of the definitions for office visit codes 99212 and 99213, respectively.
The terms are supposed to help physicians differentiate the levels of complexity those
two codes represent. Specifically, the levels of history and examination are two criteria
for selecting code 99212 or 99213.

Further describing the lack of clarity in the code definitions, another carrier stated that
clarification was needed regarding how to properly evaluate medical decision making.
The carrier also stated that clarification was needed on how to determine the degree of
documentation needed to support each code level. For example, what documentation is
needed on initial examinations as opposed to subsequent examinations. Some carriers
also said they need examples of proper support documentation. (Subsequent to our
survey, HCFA issued medical documentation guidelines to carriers.)

Citing another aspect of the new codes for which they believe clarification is needed,
several carriers said that they and physicians need more published vignettes giving
examples of proper coding. They especially cited a need for vignettes on services to
elderly persons with multiple ailments.

Carriers Repti   tick   of Coding Un~ormity and Accuracy among Physkians

We also asked carriers for their views about coding uniformity and accuracy. As Tables
1 and 2 indicate, only carriers # 2 and # 4 in our sample believe that physicians are
using the codes uniformly and accurately. The eight sampled carriers based their
opinions that physicians used the new codes inaccurately or accurately on reviews of
physician coding practices and medical records of patients. All of the carriers reported
reviewing samples of Medicare claims and supporting documentation, as required by
HCFA. However, in light of their own difficulties with choosing correct codes, carrier
opinions should be viewed with some caution.




                                              5

                                 TABLE 1

       CARRIER OPINIONS ON UNIFORMITY OF CODING BY PHYSICIANS

     CARRIER          UNIFORM        NONUNIFORM        DOIWI’KNOW

Carrier # 1                                  x

Carrier # 2                x

Carrier # 3                x

Carrier # 4                x

Carrier # 5                                  x

Carrier # 6                                                 x

Carrier # 7                                  x

Carrier #
 8



m                          3                 :              1



                                 TABLE 2

         CARRIER   OPINIONS ON ACCURACY OF CODING BY PHYSICIANS


    CARRIER        ACCURATE         INACCURATE         DON’T KNOW

Carrier #
 1           x
Carrier #
 2           x
Carrier #
 3                             x
Carrier #
 4           x
Carrier #
 5                                                x
Carrier #
 6                                                x
Carrier #
 7                             x
Carrier #
 8


m
                     3                 :                  2




                                    6

       PHYSICMS             HAD DIFFI~~       SELE~G               CODES

      The 14 physicians who coded the test vignettes included in our survey also had difficulty
      selecting proper codes (see Table 3). The 14 physicians each coded 5 test vignettes.
      Only one physician had a perfect score, with five of five coded correctly as defined by the
      AMA.


                                                      TABLE3
                           PHYSICm    CODING OF TEST CLNCfi                VIG~m

                                                                      # OF PHYSICIANS
          5 of 5 correct
                                                                              1
          4 of 5 correct
                                                                              2
          3 of 5 correct
                                                                              6
          2 of 5 correct
                                                                              3
          1 of 5 correct
                                                                              1
          0 of 5 correct

       Physician total                                        ‘%
     P
                                                                      14
                                                              II
                                                                                                II
     tick     ofPhysicianInvolvement in selectin~ ~d~.
                                              ---0     -.—




      Our survey of physicians showed that most do not personally select codes for Medicare
     claims. Table 4 shows that only about 48 percent (29 of 61) of the physicians who
     responded to our survey said they selected the codes for billing Medicare 100 percent of
     the time. About 16 percent of the physicians said they never select the codes. Thus,
     they always delegate code selection to their staff.


                                                     TABLE 4
                  PHYSIC~        INVOLVE~~            IN CODING MEDIC-             CLAIMS

      FREQUENCY             OF CODE        # OF PHYSICIANS
      SELE~ON                                                              % OF PHYSICIANS

      100 % of the time
                                                             29                    48 %
      75-99     % of the time
                                                             13	                   21 %
      1-74     % of the time
                                                                                   15 %
     0 % of the time
                                                                                   16 %
     Total
                                       &                              ~            100%


                                                       7



—.
CARRIERS HAVE TAKEN LIMK13D ACTION TO ENFORCE                         COMPLIANCE
WITH NEW VISIT CODES

Carriers report that, since the new visit codes were implemented in 1992, they have taken
virtually no action against physicians for submitting improperly coded claims.

During the first few months of 1992, HCFA instructed carriers to review claims, detect
coding errors, and educate physicians accordingly. During 1992, at least four of the eight
carriers we surveyed found error rates in excess of 25 percent. Such error rates might be
expected the first few months after the new codes were implemented.     Accordingly,
HCFA took the approach of educating, rather than penalizing, physicians who used the
wrong codes. However, since early 1992, physicians have had ample time to learn the
new codes. Yet, carrier oversight and corrective actions have been minimal to date.

HCFA told us that carriers and physicians were disadvantaged without guidelines on visit
code criteria and related medical documentation. However, HCFA’S position is that
earners could take corrective action if physicians egregiously miscode claims.

Notwithstanding HCFA’S position on corrective action, the carriers we surveyed clearly
indicated an understanding to the contrary. For example, carriers said they believed that
HCFA had instructed them not to correct codes erroneously billed by physicians, and not
to take corrective action. Further, one carrier expressed an opinion that HCFA had
even discouraged monitoring of the new visit codes. Information from another earner
illustrates carriers’ understanding of HCFA’S instructions regarding corrective actions.
That carrier told us in May 1994 that some physicians were miscoding their claims and
cited as an example a physician who billed all visits at the highest reimbursement level.
The carrier did not complete an audit of the physician’s claims until February 1995. The
audit showed that all of 60 claims reviewed should have been denied or downcoded. In
spite of such an egregious finding, however the carrier still felt the need to seek further
guidance from HCFA HCFA responded by acknowledging that carriers have been
“restricted” in enforcing compliance with the new codes. However, HCFA restated its
position that carriers, at their discretion, could take corrective action in egregious cases.

RECENT HCFA GUIDANCE             MAY IMPROVE CODING UNIFORMITY                   AND
ACCURACY

Subsequent to our surveys, HCFA issued guidelines to carriers on visit code criteria and
supporting medical documentation. The guidelines, effective in November 1994,
elaborate on visit code components such as medical history, examination, and medical
decision making. HCFA reports that carriers are now engaged in an effort to educate
physicians about the new guidelines. HCFA staff expect the guidelines to result in more
uniform and accurate coding and more consistent medical review. Further, HCFA has
provided carriers with computer software which can help them identify aberrant physician
billing patterns. Potentially, carriers can use the software to lay a foundation for
corrective actions against physicians who miscode Medicare claims. Beginning in August
1995, HCFA expects carriers to step up enforcement of the new visit codes.


                                              8

                             CONCLUSIONS



Because of the limited physician response to our survey, we are not making
recommendations.     In light of the low response
                                            .     rates, the information we developed
                                                                                  .
should be viewed as preliminary in nature. However, the data we collected in the course
of our study raise certain questions. Among those questions are:

      How accurate are codes selected by physicians and/or their staffs when submitting
      claims to the Medicare program?

      In light of their own difficulty in selecting codes accurately, to what extent do
      carrier personnel have the ability to pro;ide good advice _tophysicians and their
      staffs on coding matters?

      To what extent are carrier personnel effectively and appropriately   monitoring
      physicians’ use of codes?

Future OIG work is planned in all three of these areas to assess whether HCFA’S new
guidelines have the i;tended effect, and if so, how. HCFA expects its new guidelines to
improve physician coding accuracy, carrier accuracy in giving advice, and carrier
monitoring.




                                            9

                APPENDIX       A




VIGNETTES CODED BY CARRIERS, AND FAMILY AND GENERAL
                   PRAmoNERs




                        A-1
A.	   A sixty-six year old white male presents to the family physician’s office for a
      routine four month follow-up of his long standing hypertension and stable
      coronary artery disease. His past medical history is otherwise benign, and these
      chronic problems have remained stable for one to two years on single long acting
      calcium channel blocker. The patient, however, related the onset of new
      symptoms over the past four to six months including significant nocturia, hesitancy,
      and postvoid dribbling. A detailed examination is conducted including cardiac,
      pulmonary, and funduscopic examinations. All are within normal limits and
      unchanged. His abdominal exam, however, suggests a distended bladder and his
      rectal examination reveals a significantly enlarged prostate which is smooth,
      symmetric, and not suggestive of carcinoma. The patient is continuing on his
      usual medications but is counseled regarding a presumptive diagnosis of benign
      prostatic hypertrophy. A routine urinalysis is obtained along with an electrolyte
      panel, including renal function studies. The patient was scheduled for a urological
      consultation regarding the need for a transurethral resection of the prostate. He
      is scheduled for routine follow-up in one month following the urology evaluation.
      Duration of the visit is 12-25 minutes.

      Code: 99214

B.	   A sixty-eight year old white female presents to the family physician’s office with a
      known history of moderate hypertension and Type 11 diabetes mellitus. She has
      missed her two previous scheduled appointments. The patient is known to be
      relatively noncompliant with her medical regimen. She is complaining of excessive
      fatigue over the past two months and increased frequency of urination
      accompanied with polydipsia and polyphagia. Her chronic medications are
      supposed to include a calcium channel blocker and an oral hypoglycemia agent.
      She does have the facilities at home to monitor her blood pressure at home as
      well as a home glucose monitor. A detailed history and physical are completed
      during this visit and it is obvious that she has again been noncompliant with her
      medical regimen and noncompliant with her diet. A review of her blood pressure
      readings from home, as well as her blood glucose readings have revealed poor
      control both of her hypertension and her diabetes mellitus. Appropriate
      arrangement are made through a home health agency to provide dietary
      counseling and to provide nursing visits to assist in the assurance of medication
      compliance as well as for blood pressure and diabetic monitoring at home. A
      return appointment is made for one week to assure improvement in her clinical
      status. Duration of the visit was 20-25 minutes.

      Code: 99214




                                          A-2

c.	   A seventy-seven year old black man presents to the family physician with a three
      month history of episodic substernal chest tightness with exertion. The patient is
      an established patient having been seen previously for routine physical exams and
      for other acute episodic illnesses. A complete history reveals the patient to be a
      long term abuser of tobacco, and he also has a very strong family history of
      coronary artery disease and hypertension. He states that his episodes of chest
      discomfort have been more progressive over the previous three months and now
      include radiation into his left shoulder and neck after limited exertion activity.
      The discomfort will usually subside within two or three minutes after exertion. A
      complete physical examination is undertaken which is unremarkable. Laboratory
      data reveals a normal chest x-ray and normal resting electrocardiogram.      A
      presumptive diagnosis of coronary artery disease is made and the patient is
      prescribed a calcium channel blocker with the prn use of sublingual nitroglycerin.
      He is advised to discontinue his smoking and to limit his activities such that it is
      not to include heavy exertion or lifting. Specific counseling was also undertaken
      with the patient for coronary artery disease, risk factor modification. An
      appointment is made with a local cardiologist to schedule a submaximal exercise
      treadmill test and a follow-up appointment is scheduled in two weeks. Duration
      of time is 20-35 minutes.

      Code: 99214

D.	   A fifty year old white female presented to her family physician because of the
      onset of erythema, edema, and pain in the area of the plantar surface of the right
      third metatarsal. This is an established patient known for her insulin dependent
      diabetes who is taking a split dose of Humulin N each day. The patient also has
      hypertension, which is well controlled on Procardia XL 30 mg daily. The patient
      does have the capacity to monitor her glucoses at home. The patient denies any
      fever but has begun to note “red streaks” radiating up the medial aspect of her
      foot. A complete physical examination is performed and was benign except for an
      area of deep cellulitis on the plantar surface of the right foot near the distal third
      metatarsal. There was evidence of ascending lymphangitis. The patient’s random
      glucose taken in the office was 250. The patient and her family were counseled at
      length regarding the acute diagnosis and the ability to provide appropriate care at
      home as an outpatient. Coordination of patient’s care was then initiated through
      a home health agency to provide intravenous home antibiotic therapy and to assist
      the patient in monitoring her blood glucose control. Arrangements were also
      made for daily outpatient whirlpool treatments for appropriate debridement and
      cleansing of the right foot if an ulcer were to develop. A follow-up appointment
      in two days was assigned to the patient. Duration of the visit, including face-to-
      face time with the patient and her family, was 30 to 50 minutes.

      Code: 99215




                                           A-3

E.	   A seventy year old female is brought to the family physician by her daughter
      because of the onset over a two-month period ofconfusion, agitation, and short
      term memory loss. The patient iswellknown tothephysician         because of the long
      standing history of hypertension and diet controlled diabetes mellitus. Her only
      medication is a thiazide diuretic. The patient is ambulatory but is clearly
      disoriented and becomes easily agitated. History obtained from the daughter
      suggests a possible history of a fall at home three to four months prior to this visit
      and no other trauma can be ascertained. A history and physical examination are
      conducted. This includes an extensive necrologic examination which reveals
      significant changes in the patient’s mental status examination but no focal
      necrologic findings. Bilateral carotid bruits are detected but there is no cardiac
      murmur. Multiple diagnoses are considered including multi infarct dementia,
      subdural hematoma, Alzheimer’s dementia, etc. Diagnostic testings is initiated,
      including a head scan and appropriate biochemical studies. A consultation is
      scheduled for a necrologic second opinion and a follow-up appointment is
      scheduled in two to three weeks. Her daughter is counseled concerning her
      mother’s potential differential diagnosis and suggestion are made concerning
      increasing her support and stimulation at home through semices offered by a local
      home health agency. A referral is made to this agency to assist the daughter with
      care of the patient at home. Duration of the visit spent with the patient and her
      family is 30-50 minutes.

      Code: 99215




                                           A-4

VIGNEl!lE   CODED BY INTERNISTS




              B-1
A.	   This is a 79 year old man who has had multiple basal cell carcinomas of the head
      and neck removed in the past. He is seen today in a cancer surveillance follow-up
      program. He has no complaints.

      You examine his skin and note no new lesions or recurrence of lesions from
      previous excision sites. You again educate him regarding sun exposure and
      schedule a follow-up appointment.

      You spend 15 minutes face-to-face with the patient and/or family.

      Code: 99213

B.	   This is a 62 year old white female, established patient who is followed by you for
      primarily systolic hypertension. She presents in your office for a scheduled follow-
      up visit. She is on Dyazide. She has no complaints except for some urinary
      frequency. You obtain an interval history relating to her hypertension and GU
      symptomatology.

      You check her blood pressure which is well controlled and order a potassium and
      a urinalysis.

      You advise her to call tomorrow for the results.

      You spend 15 minutes face-to-face with the patient and/or family.

      Code: 99213

c.	   A 55 year old obese white male established patient comes to your office for
      routine follow-up six months following an anterior myocardial infarction. His
      medications include Procardia XL 30 mg. p.o. q.d., and Tenormin 25 mg. for
      hypertension. You obtain an interval history which is unremarkable.

      On examination, you note that his weight is down from 285 to 265 pounds. His
      height is 6’1” and his blood pressure is 105/65. He appears obese. His lungs are
      clear. You note an atrial diastolic gallop.

      You counsel him with regard to cholesterol management and advise him to
      continue his weight reduction and activity level. You make a note to consider
      dropping the Tenormin if his blood pressure remains stable. You schedule a
      return visit in one month.

      You spend 15 minutes face-to-face with the patient and/or family.

      Code: 99213




                                         B-2

D.	   A 68 year old white female established patient presents to your office with a
      known histo~ of moderate hypertension and Type II diabetes mellitus. She has
      missed her two previous scheduled appointments.      She is known to be relatively
      noncompliant    with her medical regimen. She complains of excessive fatigue over
      the past two months and increased frequency of urination accompanied with
      polydipsia and polyphagia.    Her chronic medications are supposed to include a
      calcium channel blocker and an oral hypoglycemic agent. She has the equipment
      at home to monitor her blood pressure and her blood glucose. You perform a
      detailed history and determine that she has again been noncompliant    with her
      medical regimen and her diet. You review her blood pressure readings from
      home, as well as her blood glucose readings and note poor control of her
      hypertension   and her diabetes.

      You perform a detailed physical.

      You adjust her hypertensive medication and arrange dietary counseling and
      nursing visits through a home health agency to assist in the assurance of
      medication compliance. You make a return appointment for one week to assure
      improvement in her clinical status.

      You spend 35 minutes face-to-face with the patient and/or family,

      Code: 99214

E.	   An unemployed 60 year old man, a chronic heavy drinker of ethanol and smoker
      of cigarettes (two packs per day for 40 years), is brought to your office by his
      daughter. He has had gradual progressive shortness of breath for 2 years and a
      long-term daily cough, usually productive of clear phlegm. However, 5 days ago,
      after binge drinking, he notices that the phlegm was no longer clear but purulent
      and occasionally streaked with blood. The patient was told that he had a positive
      tuberculin skin test many years ago, but he never received antituberculosis
      medication.

      Your physical examination reveals the patient to be alert but weak, disheveled,
      and ill-appearing. His mouth and gums are in poor condition. There is no
      adenopathy. Examination of the chest reveals scattered wheezes and a prolonged
      expiatory phase. There is clubbing of his fingers, but the rest of his physical
      examination shows no abnormalities.

      You order laboratory studies and send the patient to the second floor of your
      professional building for a chest x-ray. Within 20 minutes the radiologist reports
      that the roentgenograph of the chest shows an irregular, thick walled cavitary
      lesion in the right lung.

      The patient and his daughter come into your office where you tell them of the
      findings on the x-ray and suggest hospitalization. The patient becomes agitated,


                                          B-3

